The Library of Congress
 Office of the Inspector General




       Integrated Support Services

       Review of the Requirements Analysis for
      the Proposed Fort Meade Logistics Center

                   Review Report No. 2006-SP-802
                                     March 2008
REVIEW REPORT NO. 2006-SP-802                                                                                                    March 2008



 TABLE OF CONTENTS
           Executive Summary ......................................................................................................... i
           Background .......................................................................................................................1
                  ISS Response and OIG Comments......................................................................3
           Objectives, Scope, and Methodology.............................................................................5
           Findings and Recommendations....................................................................................7
                  I. The Library Must Critically Evaluate its Storage Strategy .......................7
                       Recommendation ............................................................................................9
                       ISS Response and OIG Comments ...............................................................9
                  II. The Baseline Space Estimate May be
                       Inflated by Unused and Outdated Material..............................................10
                       Recommendation ..........................................................................................12
                       ISS Response and OIG Comments .............................................................12
                  III. The Requirements Estimate Includes at Least
                       Three Questionable Surge Allowances......................................................13
                       Recommendation ..........................................................................................14
                       ISS Response and OIG Comments .............................................................14
                  IV. Growth Estimates are Questionable...........................................................15
                       Recommendation ..........................................................................................17
                       ISS Response and OIG Comments .............................................................17
           Conclusion .......................................................................................................................19
           Appendix A: Acronyms Used in This Report.............................................................20
           Appendix B: Breakdown of Stored Materials.............................................................21
           Appendix C: Leasing Cost Estimate ............................................................................22
           Appendix D: ISS Response to the Draft Report..........................................................23




        THE LIBRARY OF CONGRESS • Office of the Inspector General
REVIEW REPORT NO. 2006-SP-802                                                           March 2008


 EXECUTIVE SUMMARY
                                This report focuses on the requirements analysis for a
                                potential replacement for the Landover Center Annex (the
                                Annex), a facility in Landover, Maryland that the Library of
                                Congress leases to store office supplies, furniture,
                                publications, collection items, Copyright Office deposits, and
                                other materials. The Annex is 32 years old and is in need of
                                extensive renovation. Facility Services, the Integrated Support
                                Services’ component which operates the Annex, asserts that
                                the facility does not provide sufficient space to accommodate
                                the Library’s future storage needs. The lease on the Annex
                                expires in 2011 and, at that time, the Library plans to replace it
                                with another facility to help consolidate storage of existing
                                materials and accommodate future needs.

                                In 2004, the Library, in coordination with the Architect of the
                                Capitol, proposed the construction of a new Logistics Center
                                at Fort Meade to fulfill the Library’s storage requirements. In
                                2005, the construction cost of the new facility was projected to
                                be $54.1 million. However, due largely to constraints in the
                                current budget environment, the Library is now considering
                                leasing as an alternative to constructing the proposed Logistics
                                Center.

                                Critical to the Library’s warehouse planning is a carefully-
                                determined estimate of existing and future warehouse space
                                requirements. A survey performed by Facility Services in
                                April 2006 arrived at a current storage requirement of 527,900
                                cubic feet (cf) and, using a ten-year time horizon, projected a
                                future requirement of 709,454 cf.

                                In this review, we evaluated the results of Facility Services’
                                2006 storage requirements survey and assessed the
                                Library’s basic planning assumptions for addressing its future
                                warehousing needs. We determined that the methodology
                                Facility Services used in its requirements survey is consistent
                                with U.S General Services Administration guidelines. As
                                recommended by GSA, the survey included measuring the
                                space required to accommodate the materials on-hand and
                                adding space to accommodate estimated surges and future
                                growth for various material categories. However, we also
                                determined that the survey’s result is inflated because its
                                baseline estimate includes unused and outdated material that


                        THE LIBRARY OF CONGRESS • Office of the Inspector General                 i
REVIEW REPORT NO. 2006-SP-802                                          March 2008

was stored in the warehouse at the time of the survey. We
also questioned the reasonableness of Facility Services’
estimates for growth and surge allowances in the survey’s
result based on other information we collected for our review.

Moreover, we concluded that the Library should critically
review its basic assumptions about storing its materials.
Specifically, it should consider what types of materials it
should be storing and decide how to store these materials in
developing an effective warehousing solution. ISS’ strategy is
to commit to a single, large storage facility at a high initial cost
(and uncertain usage). We believe the Library can
dynamically adjust the storage space it uses by building or
leasing a relatively small storage facility, then leasing
temporary facilities on an as-needed basis. This strategy could
potentially save the Library $6 to $8 million over ten years.

ISS generally agreed with our findings and recommendations.
Concerning our suggestion that ISS lease short-term rental
space on an as-needed basis to supplement its storage space,
ISS replied that “…the ability to appropriate monies on an
annual basis and be assured that space would be available on
an as needed basis in the Washington D.C. market place
carries a risk that far exceeds the benefit of this approach.”

We disagree. We concur that our approach carries some risk
but do not believe that these risks outweigh the benefits. ISS’
strategy to build or lease a warehouse with excess space to
accommodate unpredictable surges and growth carries a
guaranteed high risk of paying for space that may never be
needed. Officials at GSA informed us that warehouse space
for short-term periods is available in the Washington, D.C.
metropolitan region. GSA also discussed other agencies that
were able to reprogram funds in their budgets to facilitate
short-term leases.

Since our project ended, the Library’s funding priorities have
changed, and the Logistics Center has been removed from the
AOC’s fiscal year 2009 budget request. The Library is now
seeking an interim solution to its storage needs.




ii   THE LIBRARY OF CONGRESS • Office of the Inspector General
REVIEW REPORT NO. 2006-SP-802                                                                     March 2008


 BACKGROUND
                                The Library stores most of its materials, such as office
                                supplies, surplus furniture, preservation supplies, as well as
                                some collections at the Landover Center Annex (a leased
                                facility located in Landover, Maryland) (the Annex), its three
                                Capitol Hill buildings, three storage buildings at Fort Meade,
                                and the Taylor Street Annex. This report focuses on a
                                potential replacement for the Annex,1 which is 32 years old
                                and in need of extensive renovation. In addition, Facility
                                Services, the component of Integrated Support Services (ISS)
                                which operates the Annex, asserts that it provides insufficient
                                space to accommodate the Library’s future storage needs. The
                                lease on the Annex expires in 2011, and at that time, the
                                Library plans to replace it with another facility. According to
                                the Library, this will help consolidate existing storage and
                                accommodate future needs.

                                In 2004, the Library, in coordination with the Architect of the
                                Capitol (AOC), proposed the construction of a new Logistics
                                Center at Fort Meade. The Logistics Center was intended to be
                                a multi-purpose facility, fulfilling the Library’s storage needs
                                and providing some collections swing space as well as office
                                space for emergency operations.

                                We reviewed four separate reports estimating costs and space
                                requirements:

                                         •   Library of Congress Logistics Center at Fort. [sic]
                                             Meade, MD, Space Assessment & Economic Analysis
                                             by Leo A. Daly (a Library contractor), August 2,
                                             2006 [Daly Report];
                                         •   Library of Congress Logistics Warehouse, Final Design
                                             Cost Submission – Revision 1 by URS Corporation
                                             (an AOC contractor), September 28, 2005 [URS
                                             Report];

                                1 The Library leases a 216,500 square foot warehouse in Landover, MD for

                                $2, 319,284 annually or $12.62 per square foot (Updated FY 2007 costs per
                                ISS response to this report). Integrated Support Services’ warehousing
                                operation occupies 85,000 square feet of the facility. The remaining space is
                                used for the Library’s collections, such as motion pictures, music, serials,
                                manuscripts, and copyright deposits. A portion of the space has also been
                                designated as an emergency operations headquarters.



                        THE LIBRARY OF CONGRESS • Office of the Inspector General                           1
REVIEW REPORT NO. 2006-SP-802                                                   March 2008

         •   Library of Congress Storage Requirements by ISS,
             April 7, 2006; and
         •   ISS Update on the Logistics Center at Ft. Meade by ISS,
             March 20, 2007 [ISS Update].

The Daly Report proposed a warehouse area spanning 148,043
square feet (sf) 2 and a total footprint of 213,371 sf.3 In 2005, the
URS report projected cost of construction at $54.1 million. We
found that this projection included significant AOC fees for
project and construction management. Furthermore, we
found that the AOC and the Library set costly high-end
construction standards for the facility. Subsequent reductions
of certain expenses have reduced the cost projection to $50.7
million.4

Due largely to constraints in the current budget environment,
the Library is now considering leasing as an alternative to
constructing a new facility.

Whether building or leasing, critical to any plan is a carefully
determined estimate of the Library’s existing and future space
requirements. A survey performed by Facility Services in
April 2006 arrived at a current storage requirement of 527,900
cubic feet (cf) and projected a 709,454 cf requirement for the
foreseeable future (using a ten-year time horizon). The
survey’s results included current storage, estimated surge
allowances5 for stored materials and a future growth
allowance of 3 percent per year for 10 years. Details of Facility
Services’ survey are shown in Appendix B.

Facility Services was continuing its evaluation when we
concluded our fieldwork for this report. Specifically, it was:
    •    “Revalidating” the Service Units’ storage needs and
         surge allowances;

2 Daly Report, page 3.
3 Id., page 9.
4 The Library’s published revised cost estimate of $43.9 million did not

include required warehouse shelving projected to cost an additional $6.8
million. Accordingly, the revised cost estimate is more accurately reflected
as $50.7 million ($43.9 million plus $6.8 million).
5 Surge allowances represent additional storage space needed to

accommodate day-to-day fluctuations. Surge allowances, as needed, range
from 3 percent for relatively stable items with low churn (such as boxed
records and forms) to 50 percent for bulky, frequently arriving items such as
furniture and exhibit cabinets.


2   THE LIBRARY OF CONGRESS • Office of the Inspector General
REVIEW REPORT NO. 2006-SP-802                                                                  March 2008


                                    •   Exploring with the Copyright Office the possibility of
                                        maintaining a joint storage facility;

                                    •   Determining whether it is more cost effective to store
                                        documents and records in the new facility or continue
                                        paying Iron Mountain, Inc.6 for storage; and
                                    •   Seeking analyses from a consulting firm on (a)
                                        warehouse space requirements, and (b) net present
                                        values of building versus leasing a warehouse facility.

                                Regardless of its final decision and before the Library can
                                develop requirements for storage, it must decide on a short-
                                and long-term strategy.

                                ISS Response and OIG Comments

                                ISS provided a lengthy response to our draft report, some
                                sections of which did not specifically address out findings, but
                                were geared to other issues. In addition to the lack of storage
                                space, ISS asserted that the Landover Annex is unsuitable
                                because of serious deficiencies in building and code
                                compliance, security, environmental controls, and inefficient
                                building design.

                                ISS also responded that there were two additional reports that
                                we should have reviewed to fully understand the
                                requirements analysis: AOC’s Program for Design, Logistics
                                Warehouse Facility at Fort Meade, MD dated June 16, 2003, and
                                URS’ Logistics Warehouse Facility for the Library of Congress 100%
                                Contract Document Submission, Project Manual, Volume 1 of 3,
                                dated June 30, 2004. On February 13, 2006, we met with and
                                asked representatives from the AOC and Facility Services to
                                provide us with any pertinent documents and reports.
                                Neither the AOC nor Facility Services provided us with these
                                two reports. After analyzing these additional documents,
                                however, our position is unchanged.

                                ISS believes that we characterized the Logistics Center as a
                                “warehouse” and did not take into account all of the other
                                programmatic requirements such as space for collections
                                processing, conservation work, conference areas, and COOP
                                space. We believe our report is fair and accurate. The amount

                                6The Library uses Iron Mountain, a company specializing in records storage
                                and management, to fulfill certain storage needs.


                        THE LIBRARY OF CONGRESS • Office of the Inspector General                        3
REVIEW REPORT NO. 2006-SP-802                                        March 2008

of overall space for the other programmatic requirements is
minor in comparison with the amount of space dedicated for
basic storage. Incidentally, the titles of the two documents
cited above that ISS thought critical for us to review both refer
to the proposed facility as a “warehouse.”

ISS disagreed with our statement that the AOC and the
Library set costly high-end construction standards for the
facility: “AOC construction standards for a facility of this type
achieve a life expectancy of 100 years, far exceeding the useful
life of typical commercial warehouse construction. Superior
construction required by the AOC has proven to be more
economical over the lifecycle of the building and adds real,
durable value to Government-owned buildings.” We stand by
our finding that a life expectancy of 100 years is grossly
excessive, especially for a warehouse. The 100-year standard
is double the GSA standard. GSA requires exterior structures
to be built to last at least 50 years. Similarly, an International
Warehouse Logistics Association spokesperson confirmed that
“[n]o one is specing a [warehouse] building as long as a 100
year time line.”

ISS also provided updated project information: “[r]ecognizing
the current budget environment and Congressional priorities,
the Library directed the AOC to remove the Logistics Center
from their FY09 budget request[,]” and “[t]he Library remains
fully committed to the Congressional Campus at Ft. Meade,
but recognizes that an affordable interim solution is necessary
until funding issues and the schedule for construction can be
resolved. “…At the Library’s request, the Architect of the
Capitol included $400,000 in its FY09 budget request to fund a
study of the Library’s interim requirements and to identify the
most effective and economical facility alternatives. Related to
this, and at the Library’s request, the Architect has also
requested Lease Authority for the Library, an administrative
provision the AOC currently has for other Legislative Branch
agencies that will provide additional expertise and flexibility.”




4   THE LIBRARY OF CONGRESS • Office of the Inspector General
REVIEW REPORT NO. 2006-SP-802                                                                  March 2008


 OBJECTIVES, SCOPE, AND METHODOLOGY
                                Our objectives in this review were to determine whether
                                Facility Services:

                                       used sound methodology to estimate future warehouse
                                        space requirements for Library materials, and

                                       made reasonable judgments and assumptions in
                                        developing the requirements estimate.

                                We consulted with the U.S. General Services Administration’s
                                (GSA) National Capitol Area Chief Appraiser. The Appraiser
                                provided us with current rental rates for about 20 warehouses
                                in Fort Meade, Maryland, and vicinity.

                                In our report dated March 2005,7 we had found that the
                                Library was not using its storage space efficiently, and
                                estimated that it could reduce its storage needs by about 20%.
                                On September 25, 2007, we made an unannounced inspection
                                of the Annex to follow up on this finding and determine if the
                                Library had corrected this problem8. We also interviewed
                                custodians for materials in Facility Design and Construction
                                (FD&C) (mostly furniture and carpet tiles), the Preservation
                                Directorate (storage boxes), the Interpretive Programs Office
                                (exhibit cases), and the Geography and Map Division (surplus
                                maps and census maps) to evaluate Facility Services’ estimates
                                for surge and expected future growth.

                                The Library engaged the Leo A. Daly consulting firm to
                                perform an analysis of lease versus build cost. The Daly
                                Report may be outdated, as it was based on 2005 cost figures
                                (projected out to 2009). Nonetheless, its analysis represents a
                                reasonable benchmark. We used the report’s cost figures to
                                form some of our conclusions. In addition, we reviewed
                                several other reports that form the basis for the Library’s
                                proposed Logistics Center.


                                7 Inventory and Equipment Management: Lack of an Inventory System

                                And Ineffective Processes Contribute to Inefficient Warehousing Operations,
                                Audit Report No. 2004-PA-103 (March 2005).
                                8 Based partly on the findings from this inspection, the Library’s Chief

                                Operating Officer and the Inspector General toured the Landover Center
                                Annex on January 24, 2008.


                        THE LIBRARY OF CONGRESS • Office of the Inspector General                        5
REVIEW REPORT NO. 2006-SP-802                                   March 2008

We conducted our fieldwork during September and October
2007, as a “non-audit service,” as defined in Section 2.14 of
Government Auditing Standards (“The Yellow Book”) issued
by the Comptroller General of the United States, and Library
of Congress Regulation (LCR) 211-6, Functions, Authority, and
Responsibility of the Inspector General.




6   THE LIBRARY OF CONGRESS • Office of the Inspector General
REVIEW REPORT NO. 2006-SP-802                                                            March 2008


 FINDINGS AND RECOMMENDATIONS
                                The methodology that Facility Services and Logistics Services
                                used in its requirements survey to estimate the Library’s
                                future warehouse space requirements is consistent with GSA
                                guidelines. As recommended by GSA, the survey included
                                measuring the space required to accommodate the materials
                                on-hand and adding space to accommodate estimated surges
                                and future growth for various material categories. However,
                                the Library should reevaluate its fundamental storage strategy
                                by reexamining what types of materials need to be stored, and
                                how these materials should be stored. Also, the requirements
                                estimate that Logistics Services has developed is inflated
                                because it includes unused and outdated material that is
                                currently in storage. Moreover, we question some of the
                                judgments and assumptions that Facility Services and
                                Logistics Services used in developing the estimate.
                                Specifically, we question whether

                                     •   the estimate should include a growth factor in view of
                                         recently available material handling technologies,
                                         improved business practices, and the cost to acquire
                                         excess vacant space which may not be needed in the
                                         future, and

                                     •   surge allowances should be included in the estimate
                                         for certain materials, such as furniture and carpet tiles,
                                         preservation supplies, and duplicate maps.

                                The following sections provide assessments of significant
                                issues we identified during our review.

                                I.       The Library Must Critically
                                         Evaluate its Storage Strategy

                                As the Library moves forward in planning its future storage
                                needs, we urge it to critically review its basic assumptions
                                about storage. The Library should consider what types of
                                materials it should be storing, decide how these materials
                                should be stored, and only then begin developing
                                requirements for a storage solution.




                        THE LIBRARY OF CONGRESS • Office of the Inspector General                 7
REVIEW REPORT NO. 2006-SP-802                                       March 2008

What Should Be Stored
This basic question should be the starting point for any well-
considered analysis. The Library’s mission is to collect and
make available knowledge. As such, it is not – and should not
be – for example, in the office supply storage and distribution
business. Ordering, receiving, processing, storing, then
distributing office supplies is a resource-intensive task. The
Library would be well served to allow third party purveyors
of office supplies to perform these activities, rather than
duplicating functions available elsewhere at a lower cost.
Given that most major office supply companies can now
deliver within 24 hours of an order, why should the Library
warehouse office supplies?
Likewise, the Library is not a records management
organization. It may be more advantageous to allow a third
party records management firm to collect and store its
archived records. Storage of federal records requires certain
environmental conditions and controls which add to the
overall cost of constructing and maintaining a facility.
These two examples illustrate the need for the Library to
critically examine what we store – and why. At the same time,
the Library must perform a cost/benefit analysis to determine
if it would be cost-beneficial to outsource one or more of these
storage functions.
How Materials Should Be Stored
Once it has identified its basic storage needs, the Library
should evaluate how to go about allocating storage space. For
example, should the Library build a warehouse capable of
storing a minimum core of its requirements or should it build
one capable of handling surges in storage needs? Should it
lease or combine building and leasing?
These questions form the core of this step of the analysis and
are all contingent on a rigorous, structured cost analysis. The
Library could decide, for example, to build a small storage
facility which could handle its basic needs, and supplement it
with temporary rental space as its needs change. This option
would lock it into a small facility with less flexibility. On the
other hand, it could build a large storage facility capable of
handling current and future needs. This option would
provide more flexibility, but would be inefficient because
much space would remain empty until the future needs



8   THE LIBRARY OF CONGRESS • Office of the Inspector General
REVIEW REPORT NO. 2006-SP-802                                                                    March 2008

                                occurred.9 Other options include leasing a small facility that
                                could expand over time and leasing a small facility on a
                                relatively short-term basis, supplementing the facility with
                                other short-term rental space on an as-needed basis, and
                                reevaluating its needs at the end of the initial lease term. This
                                last option provides the Library maximum flexibility.
                                Certainly, it may be marginally more expensive, but at the
                                same time, it requires the Library to continually rethink its
                                storage posture so as to minimize cost.

                                Recommendation

                                We recommend that the Library critically analyze its strategy
                                for providing storage space for materials in order to determine
                                the best storage strategy for various types of materials.

                                ISS Response and OIG Comments

                                ISS responded that it has hired a consultant and assembled a
                                team to “work with each Service/Support Unit in an effort to
                                identify, analyze, and definitize each storage requirement
                                (both long term and short).” “…The completion of an initial
                                review is currently scheduled for March 2008.”

                                ISS generally agreed with our conclusions concerning the
                                supply operation. However, due to delays caused by the
                                security requirement of off-site mail and freight screening, ISS
                                determined that it is more cost efficient to maintain an
                                inventory of copier paper.

                                Concerning our suggestion that ISS lease short-term rental
                                space on an as-needed basis to supplement its storage space,
                                ISS agreed that in theory this is a viable solution. However,
                                ISS noted that “…the ability to appropriate monies on an
                                annual basis and be assured that space would be available on
                                an as needed basis in the Washington D.C. market place
                                carries a risk that far exceeds the benefit of this approach.”
                                We believe that ISS needs to explore this matter further. We
                                agree that our approach carries some risk. However, we do


                                9 The Library has proposed taking this route, and using the temporary

                                excess space to store Copyright deposits for a limited amount of time. We
                                question how this would contribute to a more efficient storage scheme,
                                given that, in theory, Copyright deposits would have to be continuously
                                moved out as the Library’s other storage needs increase (using the Library’s
                                own growth factors as a guide).


                        THE LIBRARY OF CONGRESS • Office of the Inspector General                          9
REVIEW REPORT NO. 2006-SP-802                                       March 2008

not believe that these risks outweigh the benefits. ISS’ strategy
to build or lease a warehouse with excess space to
accommodate unpredictable surges and growth carries a
guaranteed high risk of paying for space that may never be
needed. Officials at the General Services Administration
(GSA) informed us that warehouse space for short-term rental
is available in the Washington, D.C. metropolitan region,
albeit more expensive than space for a long-term period. GSA
also discussed other agencies that were able to reprogram
funds to facilitate leasing space for a short-term period. We
reaffirm our recommendation.

II.       The Baseline Space Estimate May be
          Inflated by Unused and Outdated Material

Logistics Services projects that the Library needs 709,454 cf of
space to accommodate its future warehouse requirements.
This estimate may be inflated because it includes items which
most likely should no longer be stored in the Annex.

Logistics Services conducted a comprehensive review to
identify and eliminate unused, outdated, or obsolete materials
from the Landover warehouse in response to a Senate
Appropriations Committee requirement included in 2006
Senate Report 109-89 based on an audit report we issued in
2005. Logistics Services claims that actions it took in response
to these reduced the inventory by more than 20 percent.

Although Logistics Services’ efforts are a good start, more
work is needed. During our September 2007 unannounced
inspection at the Landover Annex, we identified some
inventory materials which have been stored in the warehouse
for five years or more and will likely never be used. Some
items are outdated and are no longer usable because they have
been replaced by updated products. Some notable
observations follow:

      •   The Publication Office had some materials dating back
          to 1997 and 2000. The Warehouse Foreman informed
          us that the Publications Office Director has not
          responded to requests to determine if this material is
          still needed;

      •   We found two pallets of note paper with an expiration
          date of “12/20/2004;” and


10    THE LIBRARY OF CONGRESS • Office of the Inspector General
REVIEW REPORT NO. 2006-SP-802                                                           March 2008


                                   •   FD&C had numerous boxes of steel case furniture
                                       materials dated “2004”. FD&C has also stored carpet
                                       and floor tiles in the warehouse since 2004 and 2005.

                                On January 24, 2008, subsequent to our fieldwork, we
                                accompanied the Library’s Chief Operating Officer during a
                                tour of the Landover Annex. The observations noted above
                                were reaffirmed during this trip.

                                Maintaining unused and outdated items in the warehouse is
                                principally attributable to three factors: (1) the lack of service
                                unit cooperation in managing their warehouse materials, (2) a
                                warehouse space assignment process that yields minimal
                                incentive for service units to minimize the spaces they occupy,
                                and (3) the absence of accurate, up-to-date information on
                                inventory turnover.

                                Under current procedures, Logistics Services assigns
                                warehouse space to service units and allows them to
                                determine the materials they put in storage. Although this
                                provides some incentive to the service units to use their space
                                efficiently, it does not ensure that total warehouse space is
                                efficiently used.

                                Implementing a reimbursement-based procedure could
                                provide a more effective incentive to achieve greater
                                warehouse space efficiency. For example, Facility Services
                                could charge a service unit a fixed dollar amount per cubic
                                foot of storage space. Such a procedure would likely compel a
                                service unit to monitor its warehouse space more closely,
                                dispose of unneeded material more frequently, and minimize
                                the space it occupies to save money. .

                                In addition to a more effective incentive, the service units need
                                to have accurate information on the turnover of their
                                inventory items. In the past, this information has not been
                                available. But now, through its new automated inventory
                                system, it is possible for Logistics Services to provide
                                inventory turnover information to the service units. At
                                minimum, Logistics Services should conduct periodic reviews
                                or inventories of materials stored by service and support units
                                in order to maintain control over storage space.




                       THE LIBRARY OF CONGRESS • Office of the Inspector General               11
REVIEW REPORT NO. 2006-SP-802                                      March 2008

Such data would help service units order their materials more
efficiently, manage their material inventories more effectively,
and save them money.

Recommendation

We recommend that Facility Services consider implementing a
reimbursement-based procedure for warehouse storage, such
as charging a service unit a fixed dollar amount per cubic foot
of space. At minimum, Logistics Services should conduct
periodic reviews or inventories of materials stored by service
and support units and communicate this information to the
service and support units.

ISS Response and OIG Comments

ISS responded that it “is unaware of any precedence [sic] for
an individual agency to enact a cost sharing structure across
an agency.” In our opinion, this is not a good reason not to
implement incentives for efficiency. We believe ISS needs to
adopt a more progressive, open-minded approach to space
management. Our recommendation is similar to the
recommendation we made concerning office space in our
audit Opportunities Exist to Improve Space Management—Final
Audit Report No. 2004-PA-104, issued July 2005.

ISS’ response did not directly address our recommendation
regarding Logistics Services conducting inventories of the
service and support units’ materials. Management replied
that “ISS provides a storage service to SU/SU’s, however with
the exception of the supply operation, ISS do not provide any
inventory management of the items sent to ISS for storage.”
We believe ISS’ response illustrates the problem. Neither
Logistics Services nor the service and support units are
assuming responsibility for the materials stored at Landover.
Although the inventory items belong to the service and
support units, we believe Logistics Services serves as the
custodian and should provide inventory control. This control
not only provides a useful service to the service and support
units but also provides control within the warehouse to detect
possible theft.

Several times in its response, ISS mentioned that it could not
confirm with any of its staff members or the visitor’s log at
LCA the unannounced inspection we conducted on Tuesday,



12   THE LIBRARY OF CONGRESS • Office of the Inspector General
REVIEW REPORT NO. 2006-SP-802                                                           March 2008

                                September 25, 2007. We would like to assure ISS that we
                                inspected the warehouse space assigned to Logistics Services
                                on this date. At our request, the Office of Emergency
                                Preparedness and Protective Services provided us with a copy
                                of the visitor’s log for that date. It shows the auditor’s printed
                                name and signature as well as an arrival time of 8:55 a.m. and
                                a departure time of 12:00 p.m.

                                The Warehouse Foreman accompanied us during the
                                inspection. He pointed out two areas in particular where he
                                thought more efficient use of space may be possible. First, in
                                aisles S, T, and U, the Publication Office was storing some
                                materials dating from 1997 and 2000. The Warehouse
                                Foreman mentioned that he had asked the Publications Office
                                Director to determine if this material is still needed and if not
                                then dispose of it. Second, the Warehouse Foreman brought to
                                our attention that aisle O has traveling exhibit materials
                                belonging to CDS, Copyright, Photoduplication Service, NDL,
                                and NLSBPH. He was unsure if they are still used.

                                We note that while ISS questioned whether we performed an
                                inspection, it never questioned our findings during the
                                inspection.

                                III.   The Requirements Estimate Includes at Least
                                       Three Questionable Surge Allowances

                                In general, Facility Services’ strategy of including a factor to
                                accommodate additional warehouse capacity needed for
                                possible surges in volumes of material is reasonable. As
                                shown in Appendix B, Facility Services assigned a surge
                                allowance of 10 percent to most items. However, we question
                                whether the surge factors assigned to furniture and carpet tiles
                                (mostly 50%), preservation supplies (30%), and duplicate
                                maps (45%) are reasonable.

                                       Furniture and Carpet Tiles

                                Although Facility Services has new facilities to furnish such as
                                the Library’s new National Audio-Visual Conservation Center
                                in Culpeper, Virginia, and the storage and preservation
                                facilities at Fort Meade, FD&C informed us that “just-in-time”
                                ordering procedures could be implemented and better project
                                management could be applied to its projects. As a result,




                       THE LIBRARY OF CONGRESS • Office of the Inspector General               13
REVIEW REPORT NO. 2006-SP-802                                               March 2008

additional warehouse space may not be needed for furniture
and carpet tiles.

         Preservation Supplies

Facility Services’ warehouse requirements estimate indicates
that the Preservation Directorate was occupying 56,768 cf as of
March 2006. The Directorate is confident that that amount of
space would be sufficient for its material and could possibly
be reduced if better inventory turnover information was
available from Logistics Services.

         Duplicate Maps

The Geography and Map Division confirmed that it has
duplicate maps occupying 18,000 cf in the Madison Building.
The Division did not expect to need any additional warehouse
space for this material.

Material surge and growth space for the three items referenced
above total more than 80,000 cf. A significant portion – 11.7%10
of the storage portion of the proposed facility – is allocated to
this space.

Recommendation

We recommend that Facility Services reevaluate the surge
allowances for these items.

ISS Response and OIG Comments

ISS concurred with the recommendation and responded that it
has already retained the services of a consultant to conduct an
in-depth survey of items currently in storage and validate
customer storage requirements.

Regarding the storage of furniture, ISS stated that it has
developed a just-in-time furniture delivery system and “FD&C
will validate this method prior to moving furniture inventories
to a new leased warehouse.”




10Surge space: 82,918 cf divided by total storage space 709,454 cf equals
11.7%.



14   THE LIBRARY OF CONGRESS • Office of the Inspector General
REVIEW REPORT NO. 2006-SP-802                                                                    March 2008

                                IV.       Growth Estimates are Questionable

                                Facility Services estimated the Library’s storage requirements
                                by taking the materials on-hand as of March 2006 and adding
                                an annual growth factor for certain categories of materials.
                                We believe the growth factor – a three percent increase per
                                year, for a grand total of 41 percent over ten years – lacks
                                adequate support.

                                The Library was storing approximately 445,000 cf of materials
                                as of March 2006. The growth estimate adds an additional
                                181,554 cf, or 25.6%11 of the storage portion of the proposed
                                facility.

                                We question whether this growth factor should be included in
                                the requirements estimate for three reasons:

                                      •   As noted in finding II above, we believe that the
                                          Library is storing materials it should not be and
                                          therefore inflating the baseline from which its future
                                          estimates spring;

                                      •   Both the Library’s current materials storage principles
                                          and projected growth factors are based on an outdated
                                          model; and

                                      •   Dynamically adjusting space on an as-needed basis
                                          may eliminate the need for a fixed amount of growth
                                          space.

                                Baseline

                                Our 2005 audit report found significant inefficiencies in
                                materials storage. Although it has made significant progress
                                in reducing its storage needs over the last few years, our
                                unannounced visit to the warehouse in September 2007
                                indicated that the Library continues to store materials it
                                should not. Our announced visit in January 2008 with the
                                Chief Operating Officer again confirmed that the Library
                                continues to store unneeded items in the warehouse just
                                because it has space to do so. In order to properly calculate its
                                storage needs, the Library must start from a “clean” baseline.
                                This has not yet occurred.


                                11Growth space: 181,554 cf divided by total storage space 709,454 cf equals
                                25.6%.



                       THE LIBRARY OF CONGRESS • Office of the Inspector General                          15
REVIEW REPORT NO. 2006-SP-802                                         March 2008

Modern Materials Handling and Storage Principles

In the past, slower ordering and transportation options
required large organizations to maintain stockpiles of supplies
they were going to need. If, for example, it took a week to
order and receive copier paper, a certain amount of inventory
had to be held on hand to avoid disrupting business processes.
Notwithstanding recent improvements in materials handling
technologies, the Library continues to practice the old-
fashioned model of materials storage. In considering its
storage needs, the Library should review some improved
practices, for example:

     •   "just-in-time" materials deliveries: this principle has
         fundamentally changed the operations of
         manufacturers, warehouses, and distribution centers.
         Instead of placing large orders and storing materials
         until they are used, the Library could order materials
         as it needs them from vendors who are able to make
         timely deliveries.

     •   staggered deliveries: if the Library believes it is
         necessary to place a large order with a vendor (for
         example, in the case of custom-made storage boxes), it
         could negotiate a staggered delivery schedule in its
         contract with the vendor.

     •   distributed storage: the Library could make use of
         alternative storage facilities to temporarily house
         materials for which it has no immediate need. For
         example, it may be less expensive to require a vendor
         to store office furniture until the Library is ready to
         install it.

Certainly, incremental costs may be associated with requiring
vendors to stagger deliveries or temporarily store materials;
however, these costs may be significantly less than the up-
front cost of making storage space available for future needs.

These methods will allow the Library to streamline its storage
process, make better use of less space, and save money.

Dynamic Adjustment

Instead of committing itself to a single, large storage facility at
a high initial cost (and uncertain usage), the Library can
dynamically adjust the storage space it uses by building or


16   THE LIBRARY OF CONGRESS • Office of the Inspector General
REVIEW REPORT NO. 2006-SP-802                                                                           March 2008

                                       leasing a relatively small storage facility, then leasing
                                       temporary facilities on an as-needed basis. Using the Library’s
                                       own growth estimate of approximately 182,000 cf, we
                                       calculated that the cost to lease that amount of storage space is
                                       about $1.5 million over ten years.12 The cost to build the same
                                       amount of growth space ranges from $7.5 to $9.6 million,
                                       depending on which construction cost estimate is used.13
                                       Leasing the space on an as-needed basis could potentially save
                                       the Library $6 to $8 million over ten years.14 Because ISS did
                                       not provide a single, detailed, cohesive estimate of space and
                                       cost, we had to derive cost estimates from multiple sources.
                                       See Appendix C for further calculations.

                                       Recommendation

                                       We recommend that Facility Services recalculate the growth
                                       factor starting from a “clean” baseline and consider leasing
                                       storage space on an as-needed basis to accommodate potential
                                       growth in storage requirements.

                                       ISS Response and OIG Comments

                                       ISS responded that it has already retained the services of a
                                       consultant to conduct an in-depth survey of items currently in
                                       storage and validate customer storage requirements.


                                       12Present value of minimum lease payments for growth space acquired
                                       ratably over ten years. See appendix C.

                                       13Allocation of construction cost to growth estimates:
                                                                       Daly          URS            ISS
                                                                       Report        Report         Update
                 Construction cost (millions)                          $42.4         $54.1          $50.7

                 Storage square feet (thousands)       148
                 Total square feet (thousands)         213    69.5%    [A]

                 Cost allocated to storage:

                 Growth cubic feet (thousands)         182
                 Storage cubic feet (thousands)        709    25.6%    [B]

                 Percentage of total square feet
                 allocated to growth (A times B)              17.8%
                 Square feet (thousands)                      37.9
                 Cost allocated to growth (millions)                   $7.5         $9.6            $9.0

                                       14Our calculation does not take into account intangibles such as the
                                       availability of space and is intended only as a guide.



                           THE LIBRARY OF CONGRESS • Office of the Inspector General                           17
REVIEW REPORT NO. 2006-SP-802                                     March 2008

Concerning leasing space, ISS responded that it had compared
the cost of storing system furniture at the distributor’s
warehouse with storing the same product at Landover and
found it is more cost effective to store it at Landover. We
believe this may be the case because FD&C’s past inefficiencies
in coordinating the purchase with the installation date has
resulted in long-term storage. To illustrate, during our two
inspection trips (September 2007 and January 2008) we
observed numerous boxes of steel case furniture materials
dated “2004.” The ISS response to section III of this report
stated that FD&C has developed a just-in-time furniture
delivery system. If effectively implemented, we believe this
will allow FD&C to order smaller quantities and better
transfer the storage cost to the vendor.




18   THE LIBRARY OF CONGRESS • Office of the Inspector General
REVIEW REPORT NO. 2006-SP-802                                                          March 2008


                                 CONCLUSION
                                Critical to the cost effectiveness of either the lease or build
                                alternative for the Library’s warehouse needs is a carefully-
                                determined estimate of existing and future warehouse space
                                requirements. Such an estimate must be based on sound
                                methodology, valid data on usable existing inventory, and
                                reasonable assumptions on events that could occur which
                                would affect future warehouse material levels.

                                Our review shows that the methodology that Facility Services
                                used to estimate the Library’s future warehouse space
                                requirements is sound and consistent with GSA guidelines.
                                As recommended by GSA, Facility Services measured the
                                space required to accommodate the materials on-hand and
                                added space to accommodate estimated surges and future
                                growth for various material categories. However, our review
                                also shows that the estimate that Facility Services prepared is
                                overstated and that some assumptions involved in its
                                development are questionable. Further, the Library has not
                                critically reviewed its basic assumptions for a storage facility.
                                Failure to do so could incur substantial unnecessary additional
                                long-term costs.

                                Before moving forward with a decision on the Library’s
                                warehouse needs, Facility Services should reevaluate its
                                estimate of the Library’s future warehouse space requirements
                                by focusing on the areas identified in this report. An effective
                                reevaluation should minimize costs and maximize efficiency
                                for the storage decision that is eventually made.

                                The original cost estimate of $54.1 million to build at Fort
                                Meade included costly design, construction, and finish choices
                                for a structure that was, for the most part, storage space.
                                Facility Services should strive for cost consciousness in its
                                construction plans, whether for a new facility at Fort Meade,
                                or tenant improvements to a leased facility.




                                Major Contributors to This Report:

                                Nicholas G. Christopher, Assistant Inspector General
                                Patrick J. Cunningham, Senior Auditor


                       THE LIBRARY OF CONGRESS • Office of the Inspector General              19
REVIEW REPORT NO. 2006-SP-802                                    March 2008


 APPENDIX A: ACRONYMS USED IN THIS REPORT
AOC           Architect of the Capitol
FD&C          Facility Design and Construction
GSA           General Services Administration
ISS           Integrated Support Services
CF            Cubic Feet
SF            Square Feet




20   THE LIBRARY OF CONGRESS • Office of the Inspector General
REVIEW REPORT NO. 2006-SP-802                                                                                    March 2008


 APPENDIX B: BREAKDOWN OF STORED MATERIALS
                                                                             Cubic         Total       % of
            Service Unit/Location                       Items                                                   Surge Factor
                                                                              Feet       Cubic Feet    Total
                                        Forms and records                    105,152                    23.6%            10%
                                        Film cans                              2,304                      .5%            50%
         Landover                       Computers                              2,880                      .7%            10%
         (excluding furniture)          Copy paper                             9,664                     2.2%            10%
                                        Misc.                                 14,400                     3.2%            10%
                                        Office Supplies                        3,600                      .8%            30%
         Total Landover                                                                    138,000      31.0%
                                        Mostly metal shelving and misc.        83,847                                0 to 10%
         Ft. Meade
                                        Less: IPO Cases                         9,517        74,330    16.7%
         Integrated Support Services    Furniture and carpet tiles                           73,280    16.5%      Mostly 50%
         Preservation                   Collection storage boxes                             56,768    12.8%             30%
                                        Duplicate maps (18,000 cf.) and
         Geography & Map                                                                     39,000     8.8%    45% and 10%
                                        census maps (21,100 cf.)
         Interpretive Programs Office   Mostly exhibit cases and crates                      32,331     7.3%              0%
         Taylor Street                  Books, boxes, furniture                              27,995     6.3%      Mostly 10%
         Collection Access, Loan, &
                                        Shelving and business records                         2,148     0.5%              5%
         Management
         Prints & Photographs           Exhibit materials                                      668       0.2%    5% and 45%
         African/Middle Eastern         Books and newspapers                                   462       0.1%           10%
                                                            Materials Currently Stored     444,982    100.0%*
                                                                     Surge Allowance        82,918      18.6%
                                                    Current Requirements (with surge)      527,900
                                                                    Growth Allowance       181,554     40.8%
                                                                               TOTAL       709,454
         Table 1: Storage estimates by Service unit/category


        Source: Facility Services’ Library of Congress Storage Requirements report dated April 7,
        2006.

        *Totals may not agree due to rounding.




                                    THE LIBRARY OF CONGRESS • Office of the Inspector General                            21
REVIEW REPORT NO. 2006-SP-802                                                  March 2008


 APPENDIX C: LEASING COST ESTIMATE
We attempted to locate a cost per square foot for the growth
and surge portions of the facility. The four reports we
reviewed alternately quoted square and cubic feet; none
related one to the other. We therefore had to derive the cost
per square foot for the various segments of the storage portion
of the facility. Our calculations are rough estimates at best,
since different finishes and fit-outs affect the final cost of each
segment, however, they can be used as a guide.

Facility Services’ April 7, 2006 Library of Congress Storage
Requirements report allocated 181,554 cubic feet, or
approximately 25.6% of the total storage area (709,454 cf) to
growth. The Daly report allocated 148,043 square feet to the
storage area. By extension, therefore, we estimate the growth
portion of the facility to occupy about 37,900 sf (25.6% of
148,043 sf).

             Gross              Required    Annual      Gross
             Square     Usage    Square    Rent Per     Annual      NPV of
 Year         Feet       Rate     Feet      Sq. Ft.      Rent        Rent
  1          37,900      10%       3,790      $8.00      $30,320    $28,876
  2          37,900      20%       7,580        8.28      62,762      56,927
  3          37,900      30%      11,370        8.57      97,439      84,171
  4          37,900      40%      15,160        8.87     134,465    110,625
  5          37,900      50%      18,950        9.18     173,964    136,306
  6          37,900      60%      22,740        9.50     216,064    161,230
  7          37,900      70%      26,530        9.83     260,897    185,415
  8          37,900      80%      30,320      10.18      308,604    208,875
  9          37,900      90%      34,110      10.53      359,331    231,628
  10         37,900     100%      37,900      10.90      413,230    253,688

Totals                                                 $2,057,077 $1,457,741

Table 2: Net present value of future minimum lease payments

To calculate the estimated cost to lease this space, we used an
annual rental estimate of $8 per sf15, an annual inflation factor
of 3.5%, a present value factor of 5%, and assumed that the
space would become necessary in equal increments over a ten-
year period. See table 2.




15   Daly Report, page 25.



22     THE LIBRARY OF CONGRESS • Office of the Inspector General
REVIEW REPORT NO. 2006-SP-802                                              March 2008


 APPENDIX D: ISS RESPONSE TO THE DRAFT REPORT




                       THE LIBRARY OF CONGRESS • Office of the Inspector General   23
REVIEW REPORT NO. 2006-SP-802                                    March 2008




24   THE LIBRARY OF CONGRESS • Office of the Inspector General
REVIEW REPORT NO. 2006-SP-802                                              March 2008




                       THE LIBRARY OF CONGRESS • Office of the Inspector General   25
REVIEW REPORT NO. 2006-SP-802                                    March 2008




26   THE LIBRARY OF CONGRESS • Office of the Inspector General
REVIEW REPORT NO. 2006-SP-802                                              March 2008




                       THE LIBRARY OF CONGRESS • Office of the Inspector General   27
REVIEW REPORT NO. 2006-SP-802                                    March 2008




28   THE LIBRARY OF CONGRESS • Office of the Inspector General
REVIEW REPORT NO. 2006-SP-802                                              March 2008




                       THE LIBRARY OF CONGRESS • Office of the Inspector General   29
REVIEW REPORT NO. 2006-SP-802                                    March 2008




30   THE LIBRARY OF CONGRESS • Office of the Inspector General
REVIEW REPORT NO. 2006-SP-802                                              March 2008




                       THE LIBRARY OF CONGRESS • Office of the Inspector General   31
REVIEW REPORT NO. 2006-SP-802                                    March 2008




32   THE LIBRARY OF CONGRESS • Office of the Inspector General
REVIEW REPORT NO. 2006-SP-802                                              March 2008




                       THE LIBRARY OF CONGRESS • Office of the Inspector General   33
REVIEW REPORT NO. 2006-SP-802                                    March 2008




34   THE LIBRARY OF CONGRESS • Office of the Inspector General
REVIEW REPORT NO. 2006-SP-802                                              March 2008




                       THE LIBRARY OF CONGRESS • Office of the Inspector General   35
REVIEW REPORT NO. 2006-SP-802                                    March 2008




36   THE LIBRARY OF CONGRESS • Office of the Inspector General
